               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Service Performance Measurement
          Data – Commercial Mail

                      Audit Report




                                              June 25, 2012

Report Number CRR-AR-12-005
                                                                         June 25, 2012

                                            Service Performance Measurement Data –
                                                                   Commercial Mail

                                                      Report Number CRR-AR-12-005



IMPACT ON:
Service Performance Measurement             Postal Service uses proxy data from the
(SPM) data of commercial mail and the       External First-Class Measurement
mailers who rely on this data.              System for the last-mile calculation
                                            across all mail classes which may distort
WHY THE OIG DID THE AUDIT:                  actual results. We consider these issues
The Postal Accountability and               to be minor as they relate to the overall
Enhancement Act requires the Postal         reliability of SPM data.
Service to measure service performance
for market-dominant products and report     WHAT THE OIG RECOMMENDED:
the results to the Postal Regulatory        We recommended the Postal Service
Commission. Our objective was to            simplify the scoring process used for
determine whether the data used for         measuring service performance of
SPM of commercial mail is reliable. In      commercial mail and use actual
addition, we reviewed U.S. Postal           commercial mail data in the last-mile
Service actions to address the issues       calculation.
identified in our interim report to
determine whether they were successful      WHAT MANAGEMENT SAID:
in increasing the effectiveness of the      Management agreed with our findings
SPM process.                                and recommendations.

WHAT THE OIG FOUND:                         AUDITORS’ COMMENTS:
We determined the data used for SPM         We consider management’s comments
of commercial mail is generally reliable.   responsive.
The Postal Service increased the
volume of full-service Intelligent Mail®    Link to review the entire report.
barcode mail, which resulted in a higher
representation of commercial mail
included in the measurement of service
performance. However, coverage levels
remain low for four of the 13 categories
used to assess whether the data utilized
is representative of the overall
population of full-service commercial
mail. In addition, the SPM system is
complex and includes several
duplicative internal and external
calculation processes. Furthermore, the
June 25, 2012

MEMORANDUM FOR:            JAMES P. COCHRANE
                           VICE PRESIDENT, PRODUCT INFORMATION




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                           for Revenue & Systems

SUBJECT:                   Audit Report – Service Performance Measurement Data –
                           Commercial Mail
                           (Report Number CRR-AR-12-005)

This report presents the final results of our audit of service performance measurement
data for commercial mail (Project Number 11RG008CRR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Paul Kuennen, director, Cost,
Pricing, and Rates, or me at 703-248-2100.

Attachments

cc: Joseph Corbett
    Pritha N. Mehra
    Corporate Audit and Response Management
Service Performance Measurement Data –                                                                           CRR-AR-12-005
 Commercial Mail



                                               TABLE OF CONTENTS



Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 3

Coverage Percentages.................................................................................................... 4

Service Performance Measurement Process Simplification ............................................ 6

Last-Mile Calculation ....................................................................................................... 7

Recommendations .......................................................................................................... 8

Management’s Comments .............................................................................................. 9

Evaluation of Management’s Comments ......................................................................... 9

Appendix A: Additional Information ............................................................................... 10

   Background ............................................................................................................... 10

   Objectives, Scope, and Methodology ........................................................................ 11

   Prior Audit Coverage ................................................................................................. 13

Appendix B: Management’s Comments ........................................................................ 14
Service Performance Measurement Data –                                                                 CRR-AR-12-005
 Commercial Mail



Introduction

This report presents the final results of our audit of service performance measurement
(SPM) data for commercial mail (Project Number 11RG008CRR000). Our objective was
to determine whether the data used for SPM of commercial mail is reliable. In addition,
we reviewed U.S. Postal Service actions addressing the issues identified in our interim
report1 to determine whether they were successful in increasing the effectiveness of the
SPM process. This audit addresses strategic, operational, and financial risk. See
Appendix A for additional information about this audit.

The Postal Accountability and Enhancement Act (PAEA)2 requires the Postal Service to
measure service performance for market-dominant products3 and report the results to
the Postal Regulatory Commission (PRC). The PRC approved the Postal Service’s
request to allow the commercial mail portion of market-dominant products to be
measured using the Intelligent Mail™ barcode (IMb).4 The full-service IMb program5
provides the infrastructure and processes for obtaining scanned mail and mailer data to
facilitate SPM. The Postal Service uses the Seamless Acceptance Service Performance
System (SASP)6 and the Intelligent Mail Accuracy and Performance System (iMAPS)7
to produce actionable SPM data for itself and its customers. The PRC reviews this data
to ensure service standards are met and delivery performance does not deteriorate
under the current rate-setting process and to assess customer satisfaction.

Based on our interim audit, we reported that the process used to obtain SPM scores for
commercial mail was ineffective. Specifically, the Postal Service did not meet its initial
milestones for implementing the SPM process because they underestimated the
complexity of obtaining reliable data. In addition, excessive electronic documentation
errors and data exclusions reduced the amount of information available for SPM. We
also noted the Postal Service delayed full-service electronic documentation postage
corrections for full-service IMb mailpieces that did not qualify for the discounts they
received. We recommended the Postal Service establish milestones for implementing
recovery of discounts provided to mailers when full-service mailings do not meet the


1
  Service Performance Measurement Data – Commercial Mail (Report Number CRR-AR-11-003, dated
September 6, 2011).
2
  Public Law 109-435, 120 Statute 3198, Title 39 U.S.C.
3
  The PAEA defines market-dominant products such as First-Class Mail, Periodicals, Standard Mail, Single-piece,
Parcel Post, Media Mail, Bound Printed Matter, Library Mail, Special Services, and Single-piece International Mail.
4
  According to the Postal Service’s 2003 Intelligent Mail Corporate Plan, intelligent mail places an information-rich
code on all mail, aggregates of mail, and business forms to provide end-to-end visibility into the mailstream.
5
  Under the full-service option, full-service mailings require a unique IMb on each mailpiece. full-service mailers also
submit postage statements and mailing documentation electronically.
6
  The SASP is used to process data from IMb scans. Seamless acceptance is the Postal Service’s program to
streamline all aspects of mail acceptance, verification, payment, and induction.
7
  The Postal Service contracted with an independent external contractor to develop iMAPS to measure and report
service scores for the market-dominant mail classes of Presort First-Class Mail (PFCM), Standard Mail, and
Periodicals based on the mailpieces and scans received from the SASP, independent reporters in the field, and other
Postal Service data sources.
                                                              1
Service Performance Measurement Data –                                                                CRR-AR-12-005
 Commercial Mail


specific requirements for the discounts received. See Prior Audit Coverage for
additional information about our interim report.

Management addressed these issues and increased the volume of full-service IMb mail
included in SPM by:

    Simplifying start-the-clock business rules.8

    Generating compliance reports for field personnel and mailers to increase
     awareness of data exclusion errors.

    Suspending the full-service mailer certification process on May 27, 2011, and
     implementing national critical acceptance times and critical entry times.

    Implementing a number of the SASP enhancements in June 2011 to improve data
     accuracy.9

As a result, the mailpieces used in SPM in relation to full-service IMb volume, or yield,
increased from about 191 million pieces in Quarter (Q) Q1, fiscal year (FY) 2011, to
about seven billion pieces in Q1, FY 2012. This represents over 48 percent of all
full-service IMb mail volume. Table 1 summarizes the improvement in the percentage of
full-service IMb mail used in reporting service performance.

                               Table 1. FYs 2011 – 2012, Q1 SPM Yield
                                   Quarter                Percentage Yield
                                  Q1, FY 11                    3.78%
                                  Q2, FY 11                    5.84%
                                  Q3, FY 11                   11.48%
                                  Q4, FY 11                   43.47%
                                  Q1, FY 12                   48.03%
                  Source: IBM Global Business Services, IMb Full-Service Volumes; Intelligent Mail
                  Accuracy and Performance System Data Analysis Quarterly Summary Reports,
                  Section 2.4, Scoring Eligibility.

For FY 2011, the Postal Service exceeded its year-end IMb compliance expectations10
for First-Class Mail (55 percent actual vs. 50 percent planned) and were within an
acceptable tolerance of meeting its year-end compliance expectations for Standard
Mail (32 percent actual vs. 37 percent planned) and Periodicals (52 percent actual vs.
55 percent planned).



8
  Start-the-clock business rules describe how start-the-clock (the point where the Postal Service takes receipt of the
mail) is calculated under different mail entry induction methods for full-service mailings.
9
  Specifically, Release 6 for the SASP included 13 system modifications designed to increase the amount of usable
data and the accuracy of service measurement data. This included modifications to implement certain business rules
for start-the-clock calculations and acceptance times.
10
   The compliance expectations are the percentage of mail expected to contain a full-service IMb by the end of
FY 2011.


                                                          2
Service Performance Measurement Data –                                                                CRR-AR-12-005
 Commercial Mail


Figure 1 compares the total commercial mail volume, full-service IMb mail volume, and
SPM yield for each quarter in FY 2011 and for Q1, FY 2012. The seven billion
mailpieces used in Q1, FY 2012 to report commercial mail service performance
represents about 19 percent of all commercial mail volume.

     Figure 1. Total Commercial Volume, Full-Service IMb Volume and SPM Yield for
                                 Q1, FYs 2011 – 2012




           Source: IBM Global Business Services, IMb Full-Service Volumes; iMAPS Data Analysis Quarterly
           Summary Reports, Section 2.4, Scoring Eligibility.

Although we considered these planned and ongoing efforts to be proper steps for
increasing the effectiveness of the SPM process, we performed additional audit work to
evaluate the success of these measures for Q1, FY 2012.

Conclusion

We determined the data used for commercial mail SPM is generally reliable. However,
despite the steady gains in SPM yield, coverage levels remain low for four of the 13
coverage categories11 used to assess whether the data utilized is representative of the
overall population of full-service commercial mail. In addition, the SPM system is
complex and includes several duplicative internal and external calculation processes.
Furthermore, the iMAPS uses proxy data from the External First-Class Measurement
System12 (EXFC) for the last-mile13 calculation across all mail classes due to the
limitations of available commercial mail data.



11
   The 13 categories are used to determine whether full-service IMb usage fairly represents key characteristics of the
entire mail class and that results of the measured pieces are similar to unmeasured pieces. For example, “having
mail sent from each district” is a coverage category.
12
   The EXFC is an end-to-end service performance measurement system for single-piece First-Class Mail.
13
   The last mile is the duration of time in days between the Anticipated Delivery Date based on final mail processing
scan and the Actual Delivery Date.


                                                          3
Service Performance Measurement Data –                                      CRR-AR-12-005
 Commercial Mail


Coverage Percentages

Coverage levels remain low for four of the 13 coverage categories the Postal Service
uses to measure the effectiveness of its SPM program for commercial mail. The iMAPS
established 13 categories to determine whether full-service IMb mail is representative of
the key characteristics of the various commercial mail classes and whether results for
the measured pieces are similar to the results for unmeasured pieces.

The 13 categories help assess how well the data represents the overall population of
commercial mail. The majority of categories have coverage levels at 80 percent or
higher. While there is no formal criteria for coverage percentages, four of the
13 categories have coverage as low as 27 percent and need improvement.
Specifically, for Q1, FY 2012, the following four sub-categories had coverage levels
below 80 percent:

    PFCM and Standard Mail:
     o Having mail originate from the service area of every plant.

     o Having mail sent from all eligible 3-digit Zone Improvement Program (ZIP)
       Code areas.

    Standard Mail only:
     o Having a mixture of possible basic entry types originate from each district.

     o Having a mixture of possible basic entry types destined for each district.

For example, the coverage level for PFCM letters sent from all eligible 3-digit ZIP
Code™ areas was only 27 percent, meaning that only 27 percent of all the eligible
3-digit ZIP code areas had full-service IMb PFCM letters sent from them to other
locations. Table 2 shows the coverage levels in Q1, FY 2012 for the 13 coverage
categories for PFCM and Standard Mail.




                                            4
Service Performance Measurement Data –                                                                CRR-AR-12-005
 Commercial Mail



               Table 2. Coverage Category Performance for Q1, FY 2012
                                                  PFCM      Standard    Standard
                Coverage Category                 Letters    Letters      Flats
Having mail sent from each district                 98.5%      100.0%     100.0%
Having mail inducted every day from each            94.0%       96.1%      93.9%
district
Having mail sent to each district                  100.0%      100.0%     100.0%
Having mail received every day in each district    100.0%      100.0%     100.0%
Having mail originate from the service area         58.4%       56.9%      51.6%
of every plant
Having mail sent from all eligible 3-digit ZIP      27.0%       43.9%      39.8%
Code areas
Having mail sent to all eligible 3-digit ZIP Code  100.0%      100.0%     100.0%
areas
Having a mixture of overnight, 2-Day, and           94.0%         N/A14       N/A
3-Day+ service standards originate from each
district
Having a mixture of overnight, 2-Day, and           99.0%          N/A        N/A
3-Day+ service standards destined for each
district
Having coverage for origin-destination              84.6%          N/A        N/A
district-service standard combinations
Having a mixture of both end-to-end and                N/A      83.2%      80.5%
destination entry from each district and to each
district.
Having a mixture of possible basic entry               N/A      78.1%      59.4%
types originate from each district.
Having a mixture of possible basic entry               N/A     100.0%      75.8%
types destined for each district.
Source: iMAPS Data Analysis Quarterly Summary Reports, Q1, FY 2012, page 15 of 25.

This is occurring because of the limited number of mailers participating in full-service
IMb and their mailing patterns.15 During our audit, the Postal Service announced plans
to discontinue use of the POSTNET barcode in January 2013. In addition, they will allow
only full-service IMb mail to qualify for automation discounts starting in January 2014.
This will increase the use of full-service IMb and mitigate the risk that it is not
representative of the overall population of commercial mail. Accordingly, we are not
making a recommendation regarding low coverage levels for certain coverage
categories.




14
  N/A is the designation for mail classes that do not apply directly to the specific coverage category.
15
  Mailing patterns include the decisions (such as volume, origin, and destination) that mailers choose for each of
their mailings.


                                                          5
Service Performance Measurement Data –                                                               CRR-AR-12-005
 Commercial Mail


Service Performance Measurement Process Simplification

The SPM process involves a hybrid system, which uses the internal SASP and the
external iMAPS16 to measure service performance for commercial mail. Differences in
data exclusion rules between these two systems decreases the efficiency of the SPM
process and delays reporting of service performance results.

The SPM process involves three steps to arrive at an end-to-end SPM calculation. The
steps are as follows:

                                           Table 3. SPM Process
Step Calculation                            Description
 1   Start-the-clock                        This step includes full-service IMb mailpieces with
     (acceptance) to final                  a start-the-clock scan recorded17 by the SASP,
     processing calculation                 sampled by the iMAPS, and not excluded by
                                            business rules of either system. Both systems
                                            calculate a Step 1 score.
     2    Last-Mile calculation             The iMAPS calculates the last mile by using both
                                            mailpieces staged by the SASP and proxy data
                                            from the EXFC.
     3    End-to-End calculation            The iMAPS uses the results from steps 1 and 2 to
                                            arrive at an end-to-end SPM calculation.
          Source: IBM Global Business Services.

We identified the following issues related to the hybrid system used for SPM
commercial mail:

        Each system calculates its own SPM measuring acceptance through the final
         processing scan, which is redundant.

        Each system has its own set of business rules used for excluding mailpieces in
         SPM. The SASP uses 39 exclusion rules, which are not mutually exclusive. For
         example, a mailpiece could be excluded by the SASP for having a duplicate IMb
         barcode, as well as for missing a stop-the-clock date. The iMAPS evaluates scans
         using 20 exclusion rules that are mutually exclusive. As a result, about 1.7 billion
         full-service IMb mailpieces (20 percent) were excluded from the SPM process in
         Q1, FY 2012. The SASP excluded over 1 billion full-service mailpieces
         (13 percent), which was a slight increase compared to Q4, FY 2011; and the
         iMAPS excluded 611 million full-service IMb mailpieces (7 percent) from SPM, a
         significant decline compared to 877 million in Q4, FY 2011.



16
   According to the PAEA, the Postal Service must provide a system to objectively measure performance for each
market-dominant product. However, PAEA does not require the Postal Service to use a particular system for this
task. Hence, by leveraging the current IMb infrastructure to create a hybrid system, the Postal Service claimed it
could avoid the cost of creating a complete stand-alone (non-hybrid) system.
17
   SASP scan records are made available to the iMAPS for matching.


                                                          6
Service Performance Measurement Data –                                                               CRR-AR-12-005
 Commercial Mail


Table 4 shows one example of business rule differences between the two systems
during step 1 of the SPM process.

      Table 4. Business Rule Differences Between the SASP and the iMAPS for
                                       Q1, FY 2012
                 Differences in Scoring Between SASP and iMAPS
                                                          SASP       iMAPS
Final processing scan date occurring before the          Included   Excluded
start-the-clock date (Included or excluded from scoring)
Final processing scan is not a valid SASP                Excluded   Included
stop-the-clock scan (Included or excluded from scoring)
Source: iMAPS Data Analysis Quarterly Summary Report, Q1, FY 2012.

For example, during Q1, FY 2012, the SASP excluded about 247 million mailpieces, but
the iMAPS included them because the pieces had at least one processing scan and it
applied the last-mile data collected from the iMAPS reporters.18 Duplication of effort
exists in step 1 of the SPM process because both the SASP and the iMAPS calculate
independent performance scores and they do not match. Additional work is required to
identify and address differences before arriving at matching scores, resulting in a final
score. Management stated they are working to align the exclusion rules of these two
systems in order to close the gap between the two scores. For example, during Q1,
FY 2012, management implemented Release 6.2 for the SASP, which more closely
aligns the exclusion rules for both systems.

Last-Mile Calculation

Despite an increasing yield for SPM data, the iMAPS continues to use proxy data19 from
the EXFC for the last-mile calculation across all mail classes in order to aggregate
sufficient data for reporting. The combination of the iMAPS reporter-scanned mail and
single piece First-Class Mail from the EXFC reporter data develops the last-mile
calculation to measure service performance from the last processing scan to delivery.
Proxy data is used because there is insufficient data for district-level reporting based
solely on full-service IMb commercial mail data. Use of this proxy data could introduce
distortions to actual results, which should be disclosed to pertinent stakeholders.

Although proxy data use has steadily declined since Q1, FY 2011, about 47 percent of
data used in the last-mile calculations in Q1, FY 2012 relied on proxy data from the
EXFC instead of actual commercial mail data. Table 5 summarizes the last-mile data
from the EXFC and the iMAPS for FY 2011 and Q1, FY 2012.




18
   iMAPS maintains a panel of thousands of residential and business customers who have agreed to report the
receipt dates of IMb items they receive by using scanners. Members of the panel are referred to as “reporters.”
19
   A proxy data is supplemental information used in cases where there is not enough actual data for reporting
purposes.


                                                          7
Service Performance Measurement Data –                                         CRR-AR-12-005
 Commercial Mail


                                   Table 5. Last-Mile Data Analysis
                                              Source
          Quarter                EXFC        iMAPS          Total     EXFC Percentage
         Q1, FY 2011            550,148      14,071       564,219         97.51%
         Q2, FY 2011            554,128      85,019       639,147         86.70%
         Q3, FY 2011            586,372     403,688       990,060         59.23%
         Q4, FY 2011            564,607     541,883      1,106,490        51.03%
         Q1, FY 2012            576,139     656,737      1,232,876        46,73%
     Source: iMAPS and external contactor data.

For four of the five mail products we examined, use of proxy data from the EXFC
resulted in a slight overstatement of actual results. Table 6 shows the percentage
delivered on time between actual last-mile iMAPS data and proxy data from the EXFC
for commercial mail in Q1, FY 2012.

Table 6. Percentage Delivered On Time Between Actual Last-Mile iMAPS Data and
                    Proxy Data from the EXFC for Q1, FY 2012
                              Percentage Delivered in
                                 0 or -1 Day20 in Last
                                          Mile
                                                        Last-Mile Delivery
   Commercial Mail Product       (iMAPS)        (EXFC)       Impact
  PFCM Letters                     97.8%         97.3%   Understatement
  Standard Mail® Letters           95.8%         97.3%    Overstatement
  Periodicals Flats                89.3%         91.6%    Overstatement
  Standard Mail Flats              82.6%         91.6%    Overstatement
  Package Services (Bound          80.5%         91.6%    Overstatement
  Printed Matter) Flats
     Source: iMAPS and external contactor data.

For example, in Q1, FY 2012, the iMAPS used EXFC data of 97.3 percent delivered for
both PFCM letters and Standard Mail letters in the last-mile calculation. This resulted in
a minor understatement and an overstatement of Last Mile delivery, respectively. As
mailers increasingly migrate to full-service IMb mail, using actual last-mile delivery
results in calculating SPM would provide a more transparent view of actual commercial
mail delivery results.

Recommendations

We recommend the vice president, Product Information:

1. Simplify the scoring process used for measuring service performance of commercial
   mail.

2. Use actual commercial mail data in the last-mile calculation.
20
     A 0 or -1 day measurement represents on-time delivery.


                                                          8
Service Performance Measurement Data –                                         CRR-AR-12-005
 Commercial Mail



Management’s Comments

Management agreed with our findings and recommendations. Regarding
recommendation 1, management stated they are working on a project to simplify and
remove redundant and conflicting processes. System changes are scheduled for
completion in Q4, FY 2012. Regarding recommendation 2, management stated when
more mailers adopt full-service IMb, a larger volume of mail will become measurable.
The external contractor will continue to evaluate and reassess the need to use the
supplemental data for last-mile calculations. In situations where it is feasible, additional
reports may be added in areas where mail volumes are lower than anticipated.
Management is exploring the feasibility of using scan data from non-full service IMb
pieces in the future. When proxy data is used, management will include a statement
describing this limitation in the quarterly service performance reports beginning with the
Q3, FY 2012 reporting cycle. See Appendix B for management’s comments in their
entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations and
corrective actions should resolve the issues identified in the report. The OIG considers
recommendation 1 significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective action is
completed. This recommendation should not be closed in the Postal Service’s follow-up
tracking system until the OIG provides written confirmation that the recommendation
can be closed.




                                              9
Service Performance Measurement Data –                                            CRR-AR-12-005
 Commercial Mail



                                  Appendix A: Additional Information

Background

The PAEA requires the Postal Service to establish modern service standards for its
market-dominant mail products. According to law, these standards should be designed
“to provide a system of objective external performance measurements for each
market-dominant product as a basis for measurement of Postal Service performance.”
However, with the approval of the PRC, an internal measurement system may be
implemented instead of an external system. 21

PFCM Letters, Standard Letters and Flats, Periodicals Flats, and Bound Printed Matter
Flats are measured through the iMAPS. The Postal Service’s SPM system uses
documented entry time in the postal network to start-the-clock and an IMb final
processing scan within the distribution network to stop the clock. These data are
augmented with a “last-mile” factor acquired through third-party reporter scans to
develop end-to-end measurement data. Data the Postal Service collects are provided to
an independent, external contractor to calculate service performance and compile the
necessary reports. Throughout FY 2011, the measurement was based on data from the
SASP, which captures data from all full-service Intelligent Mail. Actual transit time is
compared against First-Class Mail® service standards to determine the percentage
delivered on time.

In November 2010, the Postal Service established a certification process to review
mailers’ compliance with the requirements to provide accurate information necessary for
service measurement. Only certified mailers were included in measurements in
Q1, FY 2011 through Q3, FY 2011. In Q4, FY 2011, the manual verifications being done
for certification were automated and the certification process was no longer necessary.
Thus in Q4, FY 2011 nearly all full-service mailings were eligible for measurement, as
long as they passed the automated review processes.

The Postal Service continues to change the business rules to improve SPM. These
changes have positively affected SPM. In Q3, FY 2011, there were only 118 certified
mailers in measurement. In Q4, FY 2011, with the retirement of the certification
process, all mail submitted by mailers participating in full service is eligible for inclusion
in SPM. As a result, First-Class yield increased from 16.35 percent in Q3, FY 2011 to
54.34 percent in FY Q4, 2011. Standard Mail yield increased from 7.61 percent in
FY 2011, Q3 to 36.58 percent in FY 2011, Q4. The total yield increased from
11.48 percent in Q3, FY 2011 to 43.47 percent in Q4, FY 2011.




21
     PAEA, Public Law 109-435, 120 Statute 3198, Title 39 U.S.C.


                                                         10
Service Performance Measurement Data –                                         CRR-AR-12-005
 Commercial Mail



Objectives, Scope, and Methodology

Our objectives were to determine whether the data used for SPM of commercial mail is
reliable. In addition, we reviewed Postal Service actions to address the issues identified
in our interim report titled Service Performance Measurement Data – Commercial Mail
(Report Number CRR-AR-11-003, dated September 6, 2011) to determine whether they
were successful in increasing the effectiveness of the SPM process.

To accomplish our objectives we:

   Evaluated the impact of the decision to terminate the full-service mailer certification
    process.

   Conducted interviews with management, reviewed the changes of start-the-clock
    business rules and customer/supplier agreements, and determined the extent to
    which the changes have contributed to improvements in SPM.

   Reviewed the official SPM scores reported by the Postal Service to the PRC to
    determine whether the scores reflected improvement with the change from using
    only certified mailer data in Q2 and Q3, FY 2011 to the use of all full-service
    mailpieces meeting the service performance business rules for scoring.

   Reviewed the SASP container-level exclusion statistics for Q3 and Q4, FY 2011 to
    determine whether the number of data exclusions is decreasing and to identify the
    exclusion reasons with the highest number of errors.

   Analyzed Q4, FY 2011 data of mailer by entry point and evaluated mailer
    performance.

   Reviewed the results reported in the iMAPS Data Analysis Quarterly Summary
    Reports for Q2, FY 2011 through Q1, FY 2012. This was done to determine whether
    or not the data currently used by iMAPS to calculate the SPM score is representative
    of mail flow throughout the entire network.

   Analyzed SPM data, performed substantive tests by vouching reporter scans back to
    the start-the-clock date, and assessed the reliability of the data used for SPM of
    commercial mail.

We conducted this performance audit from July 2011 through June 2012 in accordance
with generally accepted government auditing standards and included such tests of
internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives. We discussed our



                                             11
Service Performance Measurement Data –                                      CRR-AR-12-005
 Commercial Mail


observations and conclusions with management on May 15 and 17, 2012, and included
their comments where appropriate.

We assessed the reliability of computer generated data by performing analytical and
comparative tests on the automated data we received. We also verified the accuracy of
the data by confirming our analysis and results with management and other data
sources. We determined that the data were sufficiently reliable for the purposes of this
report.




                                           12
     Service Performance Measurement Data –                                            CRR-AR-12-005
      Commercial Mail




     Prior Audit Coverage

                                         Final
                     Report             Report           Monetary
Report Title         Number              Date             Impact              Report Results
Service          CRR-AR-11-003          9/6/2011         $19,193,730   There was a recommendation to
Performance                                                            establish milestones for
Measurement                                                            implementing recovery of
Data –                                                                 discounts provided to mailers
Commercial                                                             when full-service IMb mailings
Mail                                                                   do not meet specific
                                                                       requirements for discounts
                                                                       received. The Postal Service
                                                                       agreed with the finding and
                                                                       recommendation.
U.S. Postal      GAO-10-145          October 2009           None       The Government Accountability
Service                                                                Office recommended the Postal
Needs to                                                               Service improve management of
Strengthen                                                             the program, including
System                                                                 developing a comprehensive
Acquisition                                                            cost estimate and sound
and                                                                    acquisition and development
Management                                                             policies. There were seven
Capabilities                                                           specific recommendations and
to Improve Its                                                         the Postal Service disagreed
Intelligent                                                            with the following three: develop
Mail®                                                                  a comprehensive cost estimate,
Full Service                                                           complete an overall program
Program                                                                plan for the entire full-service
                                                                       program, and define the core set
                                                                       of requirements and use them
                                                                       as a basis for developing a
                                                                       reliable cost estimate. The
                                                                       Postal Service did not comment
                                                                       on the recommendations to
                                                                       complete program plans,
                                                                       develop specific requirements to
                                                                       establish a robust risk
                                                                       management process, and
                                                                       develop a system integration
                                                                       plan.




                                                    13
Service Performance Measurement Data –                       CRR-AR-12-005
 Commercial Mail


                         Appendix B: Management’s Comments




                                         14
